           AUDIT REPORT


Audit of NRC’s Management of Licensee Commitments


            OIG-A-17     September 19, 2011




   All publicly available OIG reports are accessible through
                       NRC’s Web site at:
   http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  September 19, 2011




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S MANAGEMENT OF LICENSEE
                            COMMITMENTS (OIG-11-A-17)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Management of Licensee Commitments.

The report presents the results of the subject audit. Agency comments provided at a
meeting with NRC management officials and staff on August 12, 2011, and an August
23, 2011, exit conference have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or RK Wild, Team Leader, Nuclear Reactor Safety Team, at 415-5948.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Cynthia Carpenter, Acting Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                            Audit of NRC’s Management of Licensee Commitments

EXECUTIVE SUMMARY

   BACKGROUND

         The U.S. Nuclear Regulatory Commission (NRC) regulates commercial
         nuclear power plants that generate electricity through a combination of
         regulatory requirements and licensing, inspection, and enforcement
         activities. One way NRC provides oversight of licensees is through the
         management of regulatory commitments (commitments).

         Commitments are docketed, written statements describing a specific
         action that the licensee has agreed or volunteered to take. They often
         result from a licensing action such as a license amendment, including
         power uprates, or from a generic communication, such as generic letters
         and bulletins. Commitments are neither legally binding nor obligations of
         a license; however, a commitment may be escalated into a legally binding
         obligation only if NRC staff deems that the commitment is essential for
         ensuring public health and safety.

         Licensees are responsible for creating, tracking, and handling all
         commitments made to NRC. The licensee is entirely responsible for
         tracking the commitments, and this includes any changes to the
         commitments and notification to NRC about such changes. NRC expects
         licensees to honor commitments in good faith.


   PURPOSE

         The audit objective was to assess the extent to which NRC appropriately
         and consistently utilizes and manages regulatory commitments for power
         reactor licensees.


   RESULTS IN BRIEF

         Part of NRC’s mission is to identify and accomplish those actions that
         provide the level of nuclear plant performance necessary to ensure
         adequate protection of public health and safety. A commitment is one tool
         that NRC uses in the overall licensing process to add flexibility, improve
         efficiency, and maintain the flow of information between the staff and

                                       ii
                                    Audit of NRC’s Management of Licensee Commitments


licensees. OIG identified opportunities for improvement in the following
three areas:

 Consistent implementation of commitment management audits.

      o NRC inconsistently implements the audits of licensee
        commitment management programs. This is because agency
        guidance concerning its performance of required triennial audits
        is incomplete and imprecise. Incomplete and imprecise
        guidance concerning the conduct of commitment management
        audits can result in ineffective audits, inefficient use of
        resources, and the appearance that NRC provides disparate
        oversight of similarly situated licensees.

 Staff understanding of the definition and use of commitments.

      o The definition and use of commitments is not consistently
        understood throughout the agency. This occurs because NRC
        training on commitments is insufficient. Specifically, training
        does not effectively address the definition and use of
        commitments and is not provided to all agency staff involved in
        reviewing licensee commitments. This could potentially result in
        the misapplication of commitments by NRC staff.

 NRC tracking of commitments.

      o NRC does not systematically track commitments because the
        agency does not have an adequate tool for tracking them, in
        part, because the agency has not identified a need for such a
        tool. Consequently, NRC cannot completely ensure oversight of
        commitments, which has implications for the agency’s
        continuing awareness of significant commitments, the
        effectiveness of the triennial commitment management audits,
        and institutional knowledge management.




                              iii
                                        Audit of NRC’s Management of Licensee Commitments


RECOMMENDATIONS

     This report makes five recommendations to improve the agency’s
     management of licensee commitments. A consolidated list of these
     recommendations appears in Section V of this report.

AGENCY COMMENTS

     On August 9, 2011, the Office of the Inspector General (OIG) issued the
     discussion draft of this report to the Executive Director for Operations.
     OIG met with NRC management officials and staff on August 12, 2011, at
     which time the agency provided informal comments to the draft report.
     OIG subsequently met with agency management and staff during an
     August 23, 2011, exit conference to discuss agency informal comments
     that OIG incorporated into the draft report as appropriate. At this meeting,
     agency management provided supplemental information that has also
     been incorporated into this report as appropriate. NRC management and
     staff reviewed the revised draft report and generally agreed with the
     recommendations in this report. Furthermore, the agency opted not to
     provide formal comments for inclusion in this report.




                                   iv
                                   Audit of NRC’s Management of Licensee Commitments




ABBREVIATIONS AND ACRONYMS

       ADAMS   Agencywide Documents Access and Management System

       CFR     Code of Federal Regulations

       DORL    Division of Operating Reactor Licensing

       FSAR    Final Safety Analysis Report

       MD      Management Directive

       NEI     Nuclear Energy Institute

       NRC     Nuclear Regulatory Commission

       NRR     Office of Nuclear Reactor Regulation

       OGC     Office of the General Counsel

       OIG     Office of the Inspector General

       UFSAR   Updated Final Safety Analysis Report




                               v
                                                          Audit of NRC’s Management of Licensee Commitments


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ..................................................................... ii

        ABBREVIATIONS AND ACRONYMS .................................................. v

        I.     BACKGROUND ......................................................................... 1

        II.    PURPOSE ................................................................................ 5

        III.   FINDINGS .................................................................................. 5

                 A. COMMITMENT MANAGEMENT AUDITS ARE
                    INCONSISTENTLY IMPLEMENTED ........................................... 6

                 B. DEFINITION AND USE OF COMMITMENTS
                    ARE INCONSISTENTLY UNDERSTOOD ...................................11

                 C. NRC STAFF DO NOT SYSTEMATICALLY
                    TRACK COMMITMENTS ........................................................16

        IV.    CONCLUSION ..........................................................................22

        V.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................22

        VI.    AGENCY COMMENTS .............................................................23


        APPENDIX

                 A.      EXAMPLES OF COMMITMENTS ..................................24

                 B.      SCOPE AND METHODOLOGY.....................................26




                                                     vi
                                                            Audit of NRC’s Management of Licensee Commitments


I.      BACKGROUND

                   The U.S. Nuclear Regulatory Commission (NRC) regulates commercial
                   nuclear power plants that generate electricity through a combination of
                   regulatory requirements and licensing, inspection, and enforcement
                   activities. One way NRC provides oversight of licensees is through the
                   management of regulatory commitments (commitments), which are non-
                   legally binding actions that the licensee agrees or volunteers to take.
                   Licensees are responsible for creating, tracking, and handling all
                   commitments made to NRC. Within NRC, the primary responsibility for
                   managing commitments lies with Division of Operating Reactor Licensing
                   (DORL) project managers in the Office of Nuclear Reactor Regulation
                   (NRR). However, other NRC staff—such as DORL branch chiefs, NRR
                   technical reviewers, and Office of the General Counsel (OGC) staff—are
                   involved in decisionmaking processes that use commitments.

                   Guidance on Commitments

                   Although the term "regulatory commitment" is not defined in NRC’s
                   regulations, commitments are used in the context of interactions between
                   NRC and licensees for commercial nuclear reactors. The license renewal
                   rule—Title 10, Code of Federal Regulations, Section 54.3 (10 CFR §
                   54.3)—references commitments in the definition of a "current licensing
                   basis."1 In February 2000, NRC endorsed Nuclear Energy Institute (NEI)2
                   guidance document NEI-99-04, Guidelines for Managing NRC
                   Commitment Changes, which the agency found to be an acceptable
                   method for licensees to follow for managing and changing their
                   commitments to NRC. In 2003, NRR released office instruction LIC-105,
                   Managing Regulatory Commitments Made by Licensees to NRC,3 to
                   provide common references for handling commitments.




1
 Per 10 CFR § 54.3 "Definitions," the current licensing basis is the set of NRC requirements applicable to
a specific plant and a licensee's written commitments for ensuring compliance with and operation within
applicable NRC requirements and the plant-specific design basis (including all modifications and
additions to such commitments over the life of the license) that are docketed and in effect.
2
    NEI is the policy organization for the nuclear technologies industry.
3
  LIC-105 is applicable to NRR staff, and provides them and their stakeholders with a common reference
for handling regulatory commitments made by licensees for commercial nuclear reactors to NRC staff.

                                                        1
                                                       Audit of NRC’s Management of Licensee Commitments



                Definition of a Commitment

                According to NEI-99-04, commitments are docketed, written statements
                describing a specific action that the licensee has agreed or volunteered to
                take. Agency and industry guidance documents distinguish between the
                safety importance and regulatory significance of different types of licensee
                actions such as obligations and commitments. In summary:

                        Obligations are conditions or actions that are legally binding
                        requirements imposed on licensees through applicable rules,
                        regulations, orders, and licenses (includes technical specifications
                        and license conditions).

                        Commitments are appropriate for matters that are of significant
                        interest to staff but do not warrant either (1) legally binding
                        requirements, or (2) inclusion in the Updated Final Safety Analysis
                        Reports (UFSAR)4 or programs subject to a formal regulatory
                        change control mechanism.

                Unlike regulatory requirements contained in regulations, technical
                specifications, licenses, and orders, commitments are neither legally
                binding nor obligations of a license. According to LIC-105, NRC staff
                should escalate a commitment into a legally binding obligation only if the
                staff deems that the commitment is essential for ensuring public health
                and safety. NRC management asserts that once a commitment is
                escalated into a requirement, it is no longer a commitment, but rather it
                becomes a legal obligation and must be converted to an NRC enforceable
                requirement, such as a condition of the facility operating license.

                Purpose of Commitments

                As noted above, commitments are appropriate for matters that are of
                significant interest to staff, but do not warrant legally binding obligations.
                According to LIC-105, the regulatory process relies on commitments to,
                among other things, support the justification for a proposed licensing
                action or resolution of other regulatory related activities. Commitments
4
  The Final Safety Analysis Report (FSAR) is the principal document upon which the NRC bases its safety
evaluation supporting the issuance of an operating license for a nuclear power plant. Changes made after
the operating license has been issued are documented in a new document, the UFSAR, which serves as
the official source of current plant design and analyses.

                                                   2
                                                        Audit of NRC’s Management of Licensee Commitments


                often result from a licensing action such as a license amendment,
                including power uprates, or from a generic communication, such as
                generic letters and bulletins. Further, LIC-105 states that NRC expects
                licensees to honor commitments that have a safety or regulatory purpose.
                Appendix A provides examples of commitments.

                NRC expects licensees to honor commitments in good faith; however,
                noncompliance with a commitment can result in the issuance of a Notice
                of Deviation. A Notice of Deviation describes a licensee's failure to satisfy
                a commitment and requests a licensee to provide a written explanation or
                statement describing corrective steps taken (or planned), the results
                achieved, and the date when corrective action will be completed.5 A
                Notice of Deviation is an administrative mechanism that is less severe
                than a Notice of Violation,6 but allows NRC staff to request information
                from a licensee if the implementation of an action was not consistent with
                the mutually agreed-upon commitment.

                Licensee Commitment Responsibilities

                According to NEI-99-04, licensees are responsible for creating,
                implementing, and tracking all commitments made to NRC. As part of
                their business practices, licensees maintain a commitment management
                program to track a variety of commitments, including commitments made
                to NRC7 and to non-regulatory organizations, as well as corrective actions
                and self-assessments.

                The licensee is entirely responsible for tracking the commitments, and this
                includes any changes to the commitments and notification to NRC about
                such changes. NEI-99-04 includes guidance for changing commitments
                and criteria for determining if and when to inform NRC staff about a
                change. Although there is no regulatory requirement for such reporting,
                licensees will periodically report changes in commitments to the NRC via
                docketed correspondence. NEI-99-04 also provides flowcharts outlining a

5
 According to NRC staff, the agency has not issued any Notices of Deviation to licensees since 2007 for
not fulfilling a commitment.
6
  According to NRC’s Enforcement Manual, a Notice of Violation is a written notice that identifies an NRC
requirement and how it was violated.
7
 NRC does not have comprehensive data on the number of commitments made by licensees each year,
but licensee staff and NRC project managers estimated that 3 to 10 commitments are created for each
plant annually.

                                                    3
                                                      Audit of NRC’s Management of Licensee Commitments


               commitment management change process to assist licensees in
               identifying changes that are significant to safety and/or of high regulatory
               interest that should be communicated to NRC.

               NRC’s Commitment Responsibilities

               The primary responsibility for managing commitments within NRC is
               assigned to DORL project managers, but other NRC staff involved in
               decisionmaking processes that use commitments include DORL branch
               chiefs, NRR technical reviewers, and OGC.

               DORL project managers are responsible for the general oversight and
               coordination of NRR activities—including management of commitments—
               related to the processing of licensing actions, generic issues, or policy
               issues for a specific licensee. Specifically, as part of NRC’s oversight
               responsibilities, project managers are required every 3 years to audit
               licensee commitment management programs by assessing the adequacy
               of licensee implementation of a sample of commitments made to the NRC
               in past licensing actions.8 Performance of these audits is not a
               requirement of NRC’s inspection program, which does not assess how
               well licensees control commitments. Instead, the triennial audit
               requirement is described in LIC-105.

               DORL branch chiefs are expected to ensure that the triennial audits of
               licensee commitment management programs are performed. In addition,
               they are expected to ensure that the project managers are appropriately
               trained and provided with the necessary tools during their reviews of
               specific licensing actions or other licensing tasks.

               It is the role of NRR technical staff to review licensing actions and the
               supporting documentation—including any applicable commitments—to
               ensure that appropriate consideration has been given to technical issues.
               In many cases, project managers will seek subject matter expertise from
               the technical reviewers during the decisionmaking process.

               According to NRR office instructions, NRR staff should coordinate their
               programmatic efforts with OGC. LIC-100, Control of Licensing Bases for
               Operating Reactors; and NEI-99-04, Guidelines for Managing NRC
               Commitment Changes, states that OGC plays a critical role in defining the

8
 The commitment audit requirement was initiated in 2003. As of February 2010, 65 nuclear power plants
had been subject to an initial audit, and 23 plants had been subject to a followup audit.
                                                  4
                                            Audit of NRC’s Management of Licensee Commitments


           elements of the licensing bases of nuclear facilities, in defining the
           appropriate controls for and other attributes of the elements of the
           licensing bases, and in processing some plant-specific changes to
           licensing bases information. Further, NRR staff should coordinate their
           programmatic and plant-specific efforts with OGC to ensure NRC products
           (e.g., licensing documents) comply with legal requirements.



II.    PURPOSE

           The audit objective was to assess the extent to which NRC appropriately
           and consistently utilizes and manages regulatory commitments for power
           reactor licensees. Appendix B contains information on the audit scope
           and methodology.



III.   FINDINGS

           Part of NRC’s mission is to identify and accomplish those actions that
           provide the level of nuclear plant performance necessary to ensure
           adequate protection of public health and safety. A commitment is one tool
           that NRC uses in the overall licensing process to add flexibility, improve
           efficiency, and maintain the flow of information between the staff and
           licensees. The Office of the Inspector General (OIG) identified
           opportunities for improvement in the following three areas:

               Consistent implementation of commitment management audits.

               Staff understanding of the definition and use of commitments.

               NRC tracking of commitments.




                                        5
                                  Audit of NRC’s Management of Licensee Commitments


A. Commitment Management Audits Are Inconsistently Implemented

To achieve NRC’s mission of adequately protecting the public health and
safety and the environment, NRC programs and processes should be
carried out effectively, efficiently, and consistently. However, NRC
inconsistently implements the audits of licensee commitment management
programs. This is because agency guidance on implementing the triennial
audits is incomplete and imprecise. Incomplete and imprecise guidance
concerning the conduct of commitment management audits can result in
ineffective audits, inefficient use of resources, and the appearance that
NRC provides disparate oversight of similarly situated licensees.

Consistent Implementation of NRC Programs and Processes

To achieve NRC’s mission of adequately protecting public health and
safety and the environment, NRC programs and processes should be
carried out effectively, efficiently, and consistently. Consistent
implementation of NRC programs and processes facilitates a consistent
regulatory framework for overseeing commercial nuclear power plants.
One element of NRC’s regulatory oversight process is the management of
commitments, which includes conducting triennial audits of licensee
commitment management programs. The triennial audits are a primary
tool used by NRC for assessing licensee commitment management
programs. In accordance with NRC’s mission, the triennial audits of
licensee commitment management programs should be implemented
consistently.

Commitment Management Audits Are Inconsistently Implemented

NRC’s triennial commitment management audits are not consistently
implemented. There are disparities in how staff members develop
samples of commitments for review and the thoroughness of the audits.

DORL project managers inconsistently identify the universe of
commitments eligible for sampling for the triennial audits. Some of the
various sources of information that project managers use to identify the
universe of commitments include:

    Generic communications.
    Licensee correspondence.
    Prior commitment audit reports.

                              6
                                                            Audit of NRC’s Management of Licensee Commitments


                     UFSAR changes.
                     Agencywide Documents Access and Management System
                      (ADAMS).9
                     NRC amendment logs.
                     Licensee commitment tracking systems.
                     Licensee corrective action programs.

               Most project managers explained that when developing their audit sample,
               they consult various sources and/or combinations of sources, including
               ADAMS, their own records, and/or licensee kept records. For example,
               during the development of a commitment audit sample, some project
               managers indicated that they depended on a self-generated list of
               commitments to extract a sample of commitments for the audit, while other
               project managers said they rely solely upon ADAMS searches as their
               source of commitments (see Figure 1).

               Figure 1: Percent of Project Managers Indicating Source for
               Developing Their Audit Sample




                                                                           40% Only ADAMS



                                        15%
                                                                           20% Self-generated list of
                                                                           commitments
                                                  40%
                                  25%
                                                                           25% Both ADAMS and a
                                            20%                            self-generated list of
                                                                           commitments

                                                                           15% ADAMS and licensee-
                                                                           provided commitments



                  N = 20 Project Managers

               Source: OIG analysis of interviews with staff.




9
 ADAMS is the official recordkeeping system through which NRC provides access to libraries or
collections of documents related to the agency’s regulatory activities.
                                                        7
                                                     Audit of NRC’s Management of Licensee Commitments


               DORL staff members have varying views on what constitutes a thorough
               audit, and OIG observed differences in the conduct of the audits. For
               example, project managers and branch chiefs provided contrasting
               responses on whether the commitment management audit includes
               physical verification of commitments. Approximately half of the project
               managers interviewed said they would not physically or visually inspect
               the accomplishment of commitments, while all of the branch chiefs that
               OIG interviewed agreed that project managers should physically or
               visually inspect the accomplishment of commitments.

               Further, OIG observed the performance of several commitment
               management audits of licensees and noted significant differences in how
               they were conducted. Two of the audits were performed at licensee
               nuclear power plant sites while one was performed at NRC headquarters.
               The two site audits differed markedly from each other in the depth of the
               review, including the degree to which the project manager reviewed
               supporting documentation and performed physical verification activities at
               the nuclear power plant. For example, one of the project managers
               verified that the licensee had completed a specific commitment, and when
               asked if further verification was needed, the project manager said that the
               commitment review stops at the completion of the commitment. However,
               another project manager reviewed the completion of the commitment and
               then requested additional supporting documentation that went beyond the
               documented completion of the specific commitment to ensure the proper
               changes and procedures had been correctly implemented. The project
               manager also reviewed associated documents that were directly or
               indirectly affected by the commitment to ensure that the licensee had
               made all relevant changes that were impacted by the commitment.

               NRC Guidance Is Incomplete and Imprecise

               Staff interpretations concerning conduct of the triennial commitment
               management audits vary because agency guidance10 on conducting the
               audits is incomplete and imprecise. Specifically, agency guidance on
               developing a commitment management audit sample does not provide
               detailed direction on the sources to be used for identifying a universe of
               commitments. Furthermore, guidance on conducting the audits does not


10
  Although LIC-105 is the agency’s primary guidance on managing commitments, other guidance
documents such as LIC-100, Control of Licensing Bases for Operating Reactors, and LIC-101, License
Amendment Review Procedures, reference commitments.
                                                 8
                                  Audit of NRC’s Management of Licensee Commitments


articulate the depth-of-review expectations and guidelines for performing
the audits.

LIC-105 guidance on developing an audit sample is incomplete because it
does not provide detailed direction on sources that should be used to
identify the universe of commitments in preparation for an audit. For
commitment sample selection, the guidance directs project managers to
review commitments specifically made by licensees. The guidance does
not offer the specific sources where commitments can be found. Based
on this guidance, it is questionable whether project managers consistently
draw their samples from an appropriate, representative, or inclusive
universe.

Further, the LIC-105 section on conducting triennial commitment
management audits is imprecise because it does not clearly articulate the
depth-of-review expectations and guidelines for performing the audits.
This guidance does not specifically address management expectations of
staff to verify that commitments have been appropriately implemented in
the plant facility, procedures, program, or other plant documentation.
Rather, guidance simply notes that the project manager is responsible for
determining the level of physical verification and document review
depending on the nature of each commitment. This non-prescriptive
approach affords the project manager a degree of flexibility in conducting
the audit. However, it does not provide sufficient guidance to ensure that
the audits are conducted consistently with regard to thoroughness and
level of review.

Reduced Effectiveness and Efficiency, and the Appearance of
Disparate Treatment

Incomplete and imprecise guidance on the conduct of triennial
commitment management audits can result in ineffective audits, inefficient
use of resources, and the appearance that NRC provides disparate
oversight of similarly situated licensees.

The lack of clear direction from agency guidance contributes to reduced
effectiveness of the triennial audits. Unless project managers identify the
full universe of commitments for the audit sample and until the guidance
provides more clarity with regard to the depth of the audit, the audits may
not fully support NRC’s objective to determine whether licensees
successfully implement their commitments. This may lead to NRC staff

                              9
                                  Audit of NRC’s Management of Licensee Commitments


perceptions that the commitment management audits are ineffective.
Indeed, some staff articulated to OIG a reluctance to continue performing
the audits. Those audits that do not sample a complete universe of
commitments or lack the rigor and depth to ensure that commitments were
implemented represent an inefficient use of agency resources.

The inconsistencies in the implementation and conduct of the audits also
lend an appearance of disparate treatment among licensees. Ideally,
NRC should audit two licensees with similar commitments in a similar
fashion. However, if two separate project managers reviewed the two
licensees with different standards of proof and documentation, the result
could be two very different outcomes, giving the appearance of different
treatment.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Revise the section of LIC-105, Managing Regulatory Commitments
   Made by Licensees to NRC, on conducting triennial commitment
   management audits to include detailed sampling direction, such as a
   checklist of sources to be used in identifying a universe of
   commitments from which to sample.

2. Revise LIC-105, Managing Regulatory Commitments Made by
   Licensees to NRC, to include well-defined expectations and guidelines
   regarding the conduct of commitment management audits. The
   guidelines should include an expectation that audited commitments are
   reviewed to ensure that they have been appropriately implemented in
   the plant facility, procedures, program, or other plant documentations.




                             10
                                   Audit of NRC’s Management of Licensee Commitments


B. Definition and Use of Commitments Are Inconsistently
Understood

Agency staff should have a consistent understanding of commitments to
perform their work effectively; however, the definition and use of
commitments is not consistently understood throughout the agency. This
occurs because NRC training on commitments is insufficient. Specifically,
training does not effectively address the definition and use of
commitments and is not provided to all agency staff involved in reviewing
licensee commitments. This could potentially result in the misapplication
of commitments by NRC staff.

Importance of Performance Management

Good performance management practices dictate that agency staff should
have a consistent understanding of NRC’s regulatory tools and their use,
including commitments, so they can perform their work and collectively
ensure protection of public health and safety and the environment.
Furthermore, the agency’s approach to performance management
requires staff members to be highly trained in the technical disciplines
relating to their duties, the regulatory processes that govern agency
actions, and the regulatory principles inherent in making the agency a
strong, independent, stable, and predictable regulator. Being a stable and
predictable regulator implies that NRC must operate in a consistent
regulatory framework. This requires staff associated with a particular
regulatory program to have a consistent understanding of that regulatory
program and associated policies, including the definitions and the tools
used for evaluating and implementing the program.

Definition and Use of Commitments Are Inconsistently Understood

Agency staff, industry, and the public have various views on the definition
of a commitment. Furthermore, agency staff expressed conflicting
descriptions for the use of commitments.

Commitments Are Variously Defined by Stakeholders

Agency staff, industry personnel, and the public have various views of the
definition of a commitment and whether commitments are enforceable.
Figure 2 below shows the views expressed by members of these groups
when asked whether commitments can be enforced by the NRC.

                              11
                                                           Audit of NRC’s Management of Licensee Commitments


Figure 2: Perceptions of Enforceability of Commitments



                          25

                          20

                          15
                                                                            Number of NRC staff,
                          10
                                                                            industry staff, and public
                            5            24%                                interest group
                                                           76%
                                                                            representatives
                            0
                                     Indicated        Indicated
                                   commitments      commitments
                                  are enforceable      are not
                                                     enforceable

                  N = 33 Individuals
                Source: OIG analysis of interview data.


                DORL project managers explained that because commitments are not
                enforceable,11 it is their responsibility to assess the level to which NRC
                staff rely on commitments and to make sure a commitment is the
                appropriate tool to ensure that the action is completed. Further, NRC staff
                explained that commitments are not a part of the license and are therefore
                not legally enforceable.12 Under that interpretation, NRC could not issue a
                violation if a licensee fails to fulfill a commitment. However, other agency
                staff said that NRC could enforce commitments. For example, one branch
                chief said that a commitment is part of the licensing basis and is therefore
                enforceable. Other NRC staff members, including project managers,
                branch chiefs, and an OGC attorney, contended that the agency could
                take enforcement action if a licensee failed to fulfill the commitment.

                Agency and industry staff articulated a hierarchy of commitments that the
                agency guidance does not specifically address. Some NRC staff have
                differentiated commitments based on their intended application and NRC's
                ability to oversee commitments using the terms "big C" commitments and

11
   The term “enforceable” describes a legally binding obligation, such as a condition of a facility’s
operating license.
12
   According to LIC-105, issues regarding the use of regulatory commitments usually center on the legal
standing of the commitment and NRC staffs’ ability to enforce the action committed to by a licensee.
While licensees are not legally bound to fulfill a commitment, the NRC staff may use the administrative
enforcement tool of a Notice of Deviation if a licensee fails to satisfy a commitment.

                                                      12
                                  Audit of NRC’s Management of Licensee Commitments


"small c" commitments. Some NRC staff have also used the terms
"regulatory commitments" and "commitments" to differentiate between the
"big C" and "small c" commitments, respectively. Furthermore, the
definitions provided by staff for these different types of commitments were
contradictory. For example, one project manager said that "big C" or
"regulatory commitments" are safety-significant commitments that could
become an obligation or condition of the license, while another project
manager along with an OGC staff member explained that a "regulatory
commitment" is similar to a "small c" commitment which is a non-
enforceable, voluntary agreement between the licensee and NRC.
Industry staff also articulated two kinds of commitments—"obligatory
commitments" and "non-obligatory commitments"— to differentiate
between commitments made in association with a requirement in a
regulation and those commitments not explicitly identified in a regulation.

Moreover, there is a difference in the way the public and industry
understands a commitment versus NRC staff’s view of a commitment. Of
54 NRC staff members interviewed, 28 understood a commitment to be a
low-level promise between NRC and the licensees. For example, seven
staff members referred to commitments as a "gentleman’s agreement" or
as the "icing on the cake," essentially providing NRC additional assurance
that licensees will take a particular action beyond that specified in the
requirements. However, some industry staff and a public interest group
see commitments as more formal, enforceable agreements.

Agency Staff Have Conflicting Views on Use of Commitments

Various agency staff involved in handling commitments expressed
conflicting descriptions for the use of commitments. Particularly, agency
staff members have differing views on whether a regulatory decision (e.g.,
amendments to licensing documents) can be based on a commitment
(see Figure 3). Many NRC staff members believe regulatory decisions
should be made without reliance on a commitment and the commitment
should serve merely as extra assurance for NRC; however, other staff
members believe that licensing actions could be approved with
commitments and that, in some cases, NRC could not have approved the
licensing action without a commitment.




                             13
                                                          Audit of NRC’s Management of Licensee Commitments


                Figure 3: NRC Staff Views on Role of Commitments in Regulatory
                Decisions




                                                                       27% of NRC staff indicated
                                                  27%                  that regulatory decisions can
                                                                       be based on commitments.



                                                                       73% of NRC staff indicated
                                                                       that regulatory decisions
                                           73%                         cannot be based on
                                                                       commitments.



                   N = 30 NRC staff

                Source: OIG analysis of interviews with staff.


                Some NRC staff are aware of a regulatory practice that incorporates the
                content of a commitment into a licensing action implementation statement,
                while others are unaware of this option. The term "implementation
                statement" is not defined in the agency guidance for commitments.13
                However, NRC staff members who reported using the implementation
                statement explained that it requires the licensee to place their
                commitment(s) into the UFSAR. This makes the commitment subject to
                the provisions of 10 CFR § 50.5914 such that changes to the commitment
                by the licensee would result in a process to determine if prior NRC
                approval may be required. Additionally, NRC has the opportunity to
                review changes to the commitment when the UFSAR is updated according


13
  The terms "implementation statement," "implementation clause," and "implementation requirement"
were used interchangeably by some NRC staff. Although the term "implementation statement" is not
defined in agency commitment guidance, NRC staff explained that they could add an implementation
statement or clause to the licensing amendment. This section of the approval letter lists the items to be
implemented and the implementation timeframe in conjunction with or prior to the approval of the
amendment. The implementation language might state, for example, "the implementation of the
amendment shall also include…." Within this "implementation statement" is where a commitment may be
inserted and incorporated into the FSAR.
14
  10 CFR 50.59, Issuance, Limitations, and Conditions of Licenses and Construction Permits: Changes,
Tests and Experiments, outlines the instances in which a license amendment would or would not be
required due to a change in the facility or procedures described in the FSAR (as updated) or a test or
experiment not described in the FSAR (as updated).

                                                     14
                                                         Audit of NRC’s Management of Licensee Commitments


                to 10 CFR § 50.71(e).15 Therefore, certain commitments that are formally
                captured and included into the UFSAR through the implementation
                statement would receive more scrutiny by NRC staff. However, the use of
                the implementation statement as a tool that allows NRC to have more
                oversight of selected commitments is not consistently known among NRC
                staff. Specifically, of DORL staff asked if they had the knowledge and/or
                understanding of an implementation statement, more than 40 percent said
                their branch did not use it and they were unaware of such a statement
                being used by other DORL branches.

                Insufficient Commitment-Specific Training

                Current training on commitments does not sufficiently address the
                definition and use of commitments, and is not provided to all staff involved
                in reviewing licensee commitments. Providing commitment-specific
                training to all applicable NRC staff—including project managers, technical
                staff, and OGC involved in the formation or revision of reactor licensing
                actions—helps ensure that staff have the skills, knowledge, and abilities
                needed to perform their work. DORL is in the process of developing
                licensing-specific training for project managers that will address the
                application of commitments; however, this effort has not been addressed
                by all NRC offices involved in reviewing reactor licensee commitments.

                Misapplication of Commitments

                Until the various understandings of the definition and use of commitments
                are clarified, NRC risks improper application of commitments. For
                example, NRC staff may inappropriately rely on a commitment for a
                licensing decision when an obligation was required. In fact, some NRC
                staff members said that they would not have approved a particular
                licensing action without a specific commitment being present. Therefore,
                lacking a sound understanding of the appropriate application of a
                commitment, NRC staff may be accepting licensees’ proposed
                commitments in lieu of an appropriate regulatory requirement, such as
                applicable licensing conditions, orders, rules, or regulations.



15
  10 CFR § 50.71(e), Maintenance of records, making of reports, is the requirement for licensees to
update their FSAR that was originally submitted as part of their application for a license. Subsequent
revisions must be filed within a period not to exceed 24 months.


                                                    15
                                                          Audit of NRC’s Management of Licensee Commitments


                Recommendation

                OIG recommends that the Executive Director for Operations:

                3. Develop training that sufficiently addresses the definition and use of
                   commitments and provide it to all agency staff involved in reviewing
                   reactor licensee commitments.

                C. NRC Staff Do Not Systematically Track Commitments

                According to Federal regulations for preserving records and NRC
                guidance on records management, NRC should maintain records that are
                sufficient to document matters dealt with by NRC, including significant
                decisions and the decisionmaking process. NRC does not systematically
                track commitments because the agency does not have an adequate tool
                for tracking them, in part, because the agency has not identified a need for
                such a tool. Consequently, NRC cannot completely ensure oversight of
                commitments, which has implications for the agency’s continuing
                awareness of significant commitments, the effectiveness of the triennial
                commitment management audits, and institutional knowledge
                management.

                Preservation of Documents

                Federal regulations require NRC to preserve records containing adequate
                and proper documentation of the functions, decisions, and essential
                transactions of the agency to ensure that the agency can find records
                when needed. According to Management Directive (MD) 3.53, NRC
                Records Management Program,16 the agency should maintain records that
                are sufficient to document matters dealt with by NRC, including significant
                decisions and the actions taken to arrive at those decisions. This includes
                docketed commitments that are considered safety significant17 and/or
                relied upon to make regulatory decisions. Documenting commitments that
                contain information supporting regulatory decisionmaking helps ensure
                that the agency captures pertinent information and that NRC can be
                responsive and accountable for its actions in communicating with reactor

16
  MD 3.53 contains procedures, standards, and guidelines for managing NRC's official records in
accordance with U.S. National Archives and Records Administration and General Services Administration
regulations.
17
  The term “safety significant” refers to a function whose degradation or loss could result in a significant
adverse effect on defense-in-depth, safety margin, or risk.
                                                     16
                                  Audit of NRC’s Management of Licensee Commitments


licensees. Moreover, capturing commitments would assist NRC in
knowing the universe and status of all commitments.

NRC Does Not Systematically Track Commitments

NRC does not systematically track commitments and, consequently,
project managers cannot independently generate a list of all commitments
related to a specific licensee, even those that were considered by staff to
be safety significant and/or integral to approving a proposed licensing
action. The agency does not collect commitments into a single document.
Rather, commitments are included in various documents submitted by
licensees. NRC relies on licensees to track their respective commitments
and supply information to NRC on the status of the implementation/
closure of commitments for the purpose of the triennial audit. This is
problematic because some staff members view certain commitments as
safety significant and/or necessary for approval of proposed licensing
actions.

Although project managers are not required to track commitments, OIG
learned that some project managers informally track commitments. With
no requirement to track commitments, these project managers create their
own mechanisms for tracking this information because they seek the
ability to independently conduct timely and thorough commitment
searches. One experienced project manager explained that maintaining
one’s own list of commitments provides the opportunity to independently
verify that the licensee’s commitment-related information is adequately
captured, tracked, and managed. Furthermore, the majority of NRC staff
interviewed indicated that having a formal tracking tool for licensee
commitments would be beneficial (see Figure 4). Many of the staff
members who disagreed believe that tracking commitments would not be
beneficial did so solely because they felt it would be an administrative
burden for project managers.




                             17
                                          Audit of NRC’s Management of Licensee Commitments


Figure 4: NRC Staff View on Whether a Commitment Tracking Tool
Would Be Beneficial



                                                        55% of NRC staff indicated it
                                                        would be beneficial to have
                                                        a commitment tracking tool

                     45%           55%
                                                        45% of NRC staff indicated it
                                                        would not be beneficial to
                                                        have a commitment tracking
                                                        tool




  N = 22 NRC staff

Source: OIG analysis of interviews with staff.


NRC Lacks an Adequate Commitment Tracking Tool

NRC does not have an adequate tool for tracking commitments, in part,
because the agency has not identified a need for such a tool. NRC
managers said that the agency staff should not rely on commitments for
regulatory decisionmaking. However, these managers were unaware that
some staff members had used commitments for the approval of licensing
actions. Thus, the agency’s lack of support for the tracking of
commitments has been partly based on an assumption that staff were not
using commitments for the purpose of regulatory decisionmaking.

OIG identified some instances of licensee commitments that were safety
significant and/or necessary for approval of a proposed licensing action,
as follows:

     Commitment A: Staff relied upon a commitment for approval of a
      licensee's amendment to make a technical specification change
      regarding reactor power monitoring equipment calibration. NRC's
      issuance letter stated that the approval of the amendment was
      based on the commitment. One interviewee—who was the branch
      chief at the time of the commitment—said, had the commitment not
      been fulfilled, NRC may have issued an order. Another NRC staff
      member, a technical reviewer, said that the license amendment

                                     18
                                  Audit of NRC’s Management of Licensee Commitments


      request would not have been accepted without the completion of
      the commitment.

    Commitment B: After a licensee conducted a power uprate-related
     evaluation, the licensee made a commitment to operate at a lower
     power level than allowed by the nuclear power plant license. NRC
     staff members said that if the commitment had not been completed,
     it could have adversely impacted safe plant operations. NRC
     managers involved in the power level approval agreed that they
     could postulate a safety-related problem had the licensee opted not
     to implement the commitment. Later, an OGC attorney confirmed
     that a commitment was not appropriate in this instance; instead, a
     license amendment should have been used.

    Commitment C: For a requested amendment to extend the allowed
     out-of-service time for a plant’s diesel generators, the staff
     determined that a commitment was necessary. Two NRC staff
     members, a technical reviewer and an OGC attorney, said that a
     commitment to modify a circuit breaker was necessary for the
     amendment.

OIG did not perform a detailed search and review of commitments to
identify commitments, similar to the examples above, that were safety
significant and/or necessary for approval of a proposed licensing action.
Therefore, it is possible that additional examples exist. The agency also
does not know the extent to which such commitments exist because it has
not identified commitments that the staff had considered safety significant
and/or necessary for approval of a proposed licensing action.

Agency Cannot Ensure Oversight of Commitments

Until the agency tracks safety significant commitments, NRC will not be
able to ensure oversight of such commitments. Consequently, there are
implications for the agency’s continuing awareness of significant
commitments, the effectiveness of the triennial commitment management
audits, and institutional knowledge management. Further, NRC risks
erosion of its licensing logic, wherein the agency would rely on non-
mandatory commitments in lieu of licensing conditions or obligations for
nuclear power plant licensing.



                             19
                                   Audit of NRC’s Management of Licensee Commitments


Agency Awareness of Commitments

Without a tracking system, significant commitments could be overlooked
or forgotten. For example, a 1979 safety significant commitment
resurfaced in 2007 when an NRC inspection found the commitment and
issued a Notice of Deviation to the licensee because action to address the
commitment had not been completed. If NRC had a process to
independently track commitments, the agency would have been able to
monitor the implementation of the commitment, and any failure by the
licensee to take action would have been identified earlier. Instead, the
oversight and tracking of commitment implementation by NRC is ad hoc,
making it difficult for the agency and staff members to identify deviations
from poorly documented plans. However, effective use of the triennial
commitment management audits to identify potential inappropriately-
applied commitments and agency training on the proper implementation of
commitments, once implemented and reviewed by OIG, may obviate the
need for a tracking system.

Impact on Triennial Commitment Management Audits

NRC risks conducting ineffective triennial commitment management audits
because significant commitments may not be included in the commitment
management audit samples. OIG learned during an audit it observed that
NRC missed commitments made during an entire year between NRC’s
initial and first followup audit of a licensee’s commitment management
program. OIG notified the project manager of the missed timeframe, and
the project manager stated a belief that it was unnecessary to increase the
audit sample to include the missed year’s commitments because the
licensee performs its own internal audits.

Impact on Institutional Knowledge Management

Employee attrition could potentially result in the agency’s loss of
undocumented information, particularly in those instances where some
project managers have developed their own commitment tracking
systems. Commitment related information to support future projects or
regulatory decisionmaking may not be available for germane agency staff
if the agency does not formally capture the information. The commitment
management audits should identify and correct situations where
commitments were used inappropriately. Properly documenting relevant
information is a critical aspect of effective oversight and demonstrates that

                              20
                                  Audit of NRC’s Management of Licensee Commitments


NRC operates with due care and can be accountable for its oversight of
commitments.

Risks to NRC’s Licensing Logic

NRC risks not following its established licensing logic, leaving the agency
in a potential position whereby the licensing of nuclear power plants
depends on non-mandatory commitments. The licenses for operating
nuclear power plants include requirements that ensure that the functional
capability or performance levels of equipment required for safe operation
of the facility are maintained. The requirements in licenses are mandatory
and require compliance by the licensee. If NRC allows reliance on
commitments for the approval of license amendments, it risks making the
basis of safe operation reliant on actions that are not required.

Recommendations

OIG recommends that the Executive Director for Operations:

4. Identify actions to determine the extent to which commitments that are
   considered safety significant and/or necessary for approval of
   proposed licensing actions exists. This could be accomplished by
   either: (1) NRR project managers identifying any such commitments as
   part of the triennial commitment management audits, or (2) conducting
   a review of all existing commitments and identifying any inappropriately
   applied commitments. Any such commitments should be identified to
   NRC management for appropriate action.

5. Depending on the outcome of the efforts to meet recommendation 4,
   develop and utilize a tool for systematically tracking the status of
   commitments that are deemed safety significant and/or necessary for
   approval of proposed licensing actions.




                             21
                                             Audit of NRC’s Management of Licensee Commitments


IV.   CONCLUSION

          NRC commitments are a valuable regulatory tool that add flexibility to the
          regulatory review framework. They also play a key role in facilitating the
          agency’s decisionmaking process on matters that can be highly safety
          significant. Specifically, they provide additional assurance to the agency
          that a licensee action will not adversely affect the safe operation of the
          plant. Therefore, it is essential that all agency staff who work with
          commitments clearly understand the appropriate application and role of
          commitments to facilitate their consistent use. However, not all NRC staff
          understand the appropriate use of commitments. By enhancing agency
          guidance and training on the role and use of commitments, as well as
          requiring routine review and capture of commitments pertaining to safety-
          significant decisions, the agency can further strengthen its pledge to
          promote the safe operation of the nation’s power reactors.



V.    CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Revise the section of LIC-105, Managing Regulatory Commitments
             Made by Licensees to NRC, on conducting triennial commitment
             management audits to include detailed sampling direction, such as a
             checklist of sources to be used in identifying a universe of
             commitments from which to sample.

          2. Revise LIC-105, Managing Regulatory Commitments Made by
             Licensees to NRC, to include well-defined expectations and guidelines
             regarding the conduct of commitment management audits. The
             guidelines should include an expectation that audited commitments are
             reviewed to ensure that they have been appropriately implemented in
             the plant facility, procedures, program, or other plant documentations.

          3. Develop training that sufficiently addresses the definition and use of
             commitments and provide it to all agency staff involved in reviewing
             reactor licensee commitments.

          4. Identify actions to determine the extent to which commitments that are
             considered safety significant and/or necessary for approval of

                                        22
                                           Audit of NRC’s Management of Licensee Commitments


            proposed licensing actions exists. This could be accomplished by
            either: (1) NRR project managers identifying any such commitments as
            part of the triennial commitment management audits, or (2) conducting
            a review of all existing commitments and identifying any inappropriately
            applied commitments. Any such commitments should be identified to
            NRC management for appropriate action.

         5. Depending on the outcome of the efforts to meet recommendation 4,
            develop and utilize a tool for systematically tracking the status of
            commitments that are deemed safety significant and/or necessary for
            approval of proposed licensing actions.



VI.   AGENCY COMMENTS

         On August 9, 2011, OIG issued the discussion draft of this report to the
         Executive Director for Operations. OIG met with NRC management
         officials and staff on August 12, 2011, at which time the agency provided
         informal comments to the draft report. OIG subsequently met with agency
         management and staff during an August 23, 2011, exit conference to
         discuss agency informal comments that OIG incorporated into the draft
         report as appropriate. At this meeting, agency management provided
         supplemental information that has also been incorporated into this report
         as appropriate. NRC management and staff reviewed the revised draft
         report and generally agreed with the recommendations in this report.
         Furthermore, the agency opted not to provide formal comments for
         inclusion in this report.




                                      23
                                         Audit of NRC’s Management of Licensee Commitments

                                                                             Appendix A
EXAMPLES OF COMMITMENTS

       Commitments are generated from different sources, including license
       amendments, notices of enforcement discretion, generic letters, and other
       operational and licensing documents. However, the commitments are
       documented as written communication from the licensee to NRC. The
       following examples illustrate some of the sources and types of
       commitments utilized by the industry and NRC.

       Example 1: Commitment to upgrade a spent fuel pool crane

             All heavy load lifts in or around the spent fuel pool made using the
             upgraded Auxiliary Building crane lifting system will meet the
             guidance in NUREG-0612.

       This commitment was made in support of a license amendment related to
       the plant’s spent fuel pool crane. In this case, the licensee committed to
       limit use of the crane so that objects above a specific weight would not be
       lifted unless the crane was upgraded.

       Example 2: Commitment to maintain a minimum amount of fuel oil
       available

             The licensee commits to administratively control the amount of fuel
             oil in each fuel oil storage tank such that a minimum usable amount
             of 25,000 gallons (including the day tanks) is available to supply
             each EDG [emergency diesel generator] (without reliance on a
             portable transfer pump), for the duration of the enforcement
             discretion.

       In this case, a licensee made a commitment in support of the licensee
       receiving approval for temporary enforcement discretion for a requirement
       related to an emergency diesel generator. The licensee committed to
       maintain an amount of fuel in the plant’s fuel oil storage tanks that was
       greater than the minimum amount normally required.




                                    24
                                 Audit of NRC’s Management of Licensee Commitments


Example 3: Commitment to modify the containment emergency sump of a
nuclear power plant

      Installation of Unit 1 and Unit 2 new post loss of coolant accident
      containment sump recirculation screens, completion of required
      modifications and implementation of required procedural changes.

A licensee made this commitment to the NRC in response to an NRC
Generic Letter. NRC originally sent the Generic Letter to licensees of
pressurized water reactors to communicate a generic concern with their
containment emergency sumps. In response to this concern, this licensee
committed to make modifications to its reactors’ sumps recirculation
screens.




                            25
                                        Audit of NRC’s Management of Licensee Commitments

                                                                            Appendix B
SCOPE AND METHODOLOGY

       The audit objective was to assess the extent to which NRC appropriately
       and consistently utilizes and manages regulatory commitments for power
       reactor licensees. The audit focused on reviewing the oversight of
       commitments through an examination of documents, interviews, and
       observations.

       OIG reviewed relevant Federal regulations regarding the management
       and use of commitments, including 10 CFR § 54.3, Requirements for
       Renewal of Operating Licenses for Nuclear Power Plants, and 10 CFR §
       50.59, Issuance, Limitations, and Conditions of Licenses and Construction
       Permits: Changes, Tests and Experiments. OIG also reviewed agency
       and industry guidance, including LIC-105, Managing Regulatory
       Commitments Made by Licensees to the NRC; LIC-100, Control of
       Licensing Bases for Operating Reactors; and NEI-99-04, Guidelines for
       Managing NRC Commitment Changes. OIG reviewed generic
       communication documents as well as licensing documents such as
       license amendments. Furthermore, OIG reviewed NRC inspection
       procedures, SECY papers, office handbooks, and all (88) NRC
       commitment audit reports published between January 2004 and February
       2009.

       OIG interviewed NRC staff who participated in activities related to the
       management of commitments. These interviews included resident
       inspectors, OGC staff, NRC technical reviewers, DORL project managers,
       DORL staff, and agency managers. In all, OIG conducted interviews with
       54 NRC staff members to obtain staff insights into the oversight of
       licensees’ commitments and commitment management programs.

       OIG also conducted interviews with industry representatives, a public
       interest group representative, and licensee staff. The audit team also
       observed three audits of licensee’s commitment management programs
       performed by DORL project managers.

       This performance audit was conducted at NRC headquarters (Rockville,
       MD) and selected commitment audit sites in Regions II and III, from
       October 2010 through May 2011, in accordance with generally accepted
       Government auditing standards. Those standards require that the audit is
       planned and performed with the objective of obtaining sufficient,
                                   26
                                  Audit of NRC’s Management of Licensee Commitments


appropriate evidence to provide a reasonable basis for any findings and
conclusions based on the stated audit objective. OIG believes that the
evidence obtained provides a reasonable basis for the report findings and
conclusions based on the audit objective. Internal controls related to the
audit objective were reviewed and analyzed. Throughout the audit,
auditors were aware of the possibility or existence of fraud, waste, or
misuse in the program.

The audit work was conducted by R.K. Wild, Team Leader; Kevin
Nietmann, Senior Technical Advisor; Jaclyn Storch, Audit Manager;
Andrea Ferkile, Senior Management Analyst; Joseph Capuano, Auditor;
and Dana Furstenau, Student Management Analyst.




                             27
